cumuee  (CQCKLE

L eg al Brie fs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 21-

NICOLE K., BY NEXT FRIEND LINDA R., ET AL.,
PETITIONERS,
v.
TERRY J. STIGDON, IN HER OFFICIAL CAPACITY
AS DIRECTOR OF THE INDIANA DEPARTMENT
OF CHILD SERVICES, ET AL.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 6458 words, excluding the parts that are exempted by
Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 23rd day of September, 2021.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

 

GENERAL NOTARY-State of Nebraska & Chi
RENEE J. GOSS 9. Qudraw- ‘
Notary Public

My Comm. Exp. September 5, 2023
Affiant 41378
